No. 20A96

In The

Supreme Court of the United States
DANVILLE CHRISTIAN ACADEMY, INC., ET AL., Applicants,
v.
ANDY BESHEAR, GOVERNOR OF KENTUCKY,
Respondent.
TO THE HONORABLE BRETT M. KAVANAUGH, ASSOCIATE JUSTICE OF THE UNITED STATES
SUPREME COURT AND CIRCUIT JUSTICE FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE
I, Joseph R. Palmore, a member of the Bar of this Court and counsel for the amici on the
accompanying Motion by Church-State Scholars, with Attached Proposed Amicus Curiae Brief
in Support of Respondent, for Leave (1) to File the Brief; (2) in an Unbound Format on 8½-by11-inch Paper, and (3) Without Ten Days’ Advance Notice to the Parties, certify that on this 4th
day of December, 2020, I caused a copy of this motion and amicus brief to be served via next
day service and electronic mail upon:
SEE ATTACHED
JOSEPH R. PALMORE
Counsel of Record
ADAM L. SORENSEN
MORRISON & FOERSTER LLP
2000 Pennsylvania Ave., NW
Washington, D.C. 20006
(202) 887-6940
JPalmore@mofo.com
DECEMBER 4, 2020

Counsel for Amici Curiae

Service List
BARRY LEE DUNN
S. CHAD MEREDITH
MATTHEW F. KUHN
CARMINE IACCARINO
BRETT NOLAN
OFFICE OF THE
KENTUCKY ATTORNEY GENERAL
700 Capitol Avenue
Suite 118
Frankfort, KY 40601
(502) 696-5300
Barry.dunn@ky.gov
Counsel for Applicants

AMY DENISE CUBBAGE
S. TRAVIS MAYO
MARC FARRIS
TAYLOR PANE
OFFICE OF THE GOVERNOR,
COMMONWEALTH OF KENTUCKY
700 Capitol Avenue
Frankfort, KY 40601
(502) 564-2611
Amy.Cubbage@ky.gov
Counsel for Respondent

